U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

November 6, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Timothy B. Hennis v. United States,
No. 20-301 (Capital Case)
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 4,
2020, and placed on the Court’s docket on September 9, 2020. The government’s response is
currently due, on one extension, on November 9, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including December 9, 2021, within which to file the government’s response. This extension
is necessary because the attorneys with principal responsibility for final preparation of the
government’s response have been heavily engaged with the press of other matters before the Court
and to accommodate the schedule of petitioner’s counsel.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General

cc:

See Attached Service List

20-0301
HENNIS, TIMOTHY B.
USA

MARK C. BRUEGGER
AIR FORCE LEGAL OPERATIONS AGENCY
1500 WEST PERIMETER ROAD
SUITE 1100
JOINT BASE ANDREWS, MD 20762
240-612-4782
MARK.C.BRUEGGER.CIV@MAIL.MIL
TIMOTHY GERARD BURROUGHS JR.
DEFENSE APPELLATE DIVISION, UNITED
STATES ARMY LEGAL SERVICES AGENCY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060
703-693-0656
TIMOTHY.G.BURROUGHS.MIL@MAIL.MIL

